                                                             AUDIT




U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND
SPORT FISH RESTORATION PROGRAM GRANTS
Awarded to the Maine Department of Marine Resources,
from July 1, 2008,Through June 30, 2010




Report No.: R-GR-FWS-0010-2011                         December 2011
          OFFFICE OFF
          IN
           NSPECTOR GENER
                        RAL
          U.S
            S. DEPART
                    TMENT OF
                           F THE INT
                                   TERIOR


                                                                                    Deccember 22, 2011


                                   AUDIIT REPOR
                                              RT

 ndum

    Director
    U.S. Fish and Wildliffe Service

    Suzanna I. Park 

                          

    Director of External Audits

    Audit on U.S. Fish annd Wildlife Service Wilddlife and Spoort Fish Resttoration Proggram
    Grants Aw
            warded to thhe Maine Deppartment of Marine Resources, from   m July 1, 20008,
    Through June 30, 20110 (No. R-GR R-FWS-0010-2011)

This report prresents the reesults of ourr audit of cossts claimed by the State of Maine (thhe
  epartment of Marine Reesources (thee Departmennt), under graants awardedd by the U.S.
   Wildlife Serrvice (FWS)). FWS provided the graants to the Sttate under the Sport Fishh
 ion Program (the Program    m). The auddit included claims totalinng approximmately
 lion on 15 grrants that weere open duriing State fiscal years (SF FYs) that ennded June 300,
 d June 30, 2010 (see Apppendix 1). The audit also covered thhe Departmeent’s compliaance
  licable laws,, regulationss, and FWS guidelines, inncluding thoose related too the collectiion
of hunting annd fishing liccense revenuues and the r eporting of program inccome.

We found thaat the Departtment compllied, in generral, with appplicable grannt accountingg and
ry requiremeents. We queestioned costts totaling $221,147, however, becausse the
 ent claimed reimbursem  ment for (1) an employee’s retroactivve payroll costs for servicces
ed prior to thhe grant period
                           o ; and (2) expenses forr activities which did nott benefit the
 grants. We also determiined that the Departmentt did not adeequately doccument in-kinnd
tions and didd not have addequate asseent legislationn.

We provided a draft reporrt to FWS foor a responsee. We summ marized Depaartment and FWS
5 responses to the recomm mendations, as well as o ur commentt on the respponses after the
endations. We list the staatus of the reecommendattions in Apppendix 3.

 lease responnd in writingg to the findinngs and recoommendationns included in this reporrt by
 1, 2012. Youur response should include informatiion on actionns taken or planned, targgeted
 on dates, andd titles of offficials respoonsible for im
                                                       mplementatioon. Please adddress your
  to:



                    Office of Audits, Inspecttions, and Evaluaations | Reston, VA
                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191

      If you have any questions regarding this report, please contact the audit team leader,
Debra Darby, or me at 703–487–5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service
Table of Contents
Introduction............................................................................................................. 1 

   Background ......................................................................................................... 1 

   Objectives............................................................................................................ 1 

   Scope ................................................................................................................... 1 

   Methodology ....................................................................................................... 1 

Prior Audit Coverage .............................................................................................. 2 

Results of Audit ...................................................................................................... 3 

   Audit Summary ................................................................................................... 3 

   Findings and Recommendations ......................................................................... 3 

Appendix 1.............................................................................................................. 9 

Appendix 2............................................................................................................ 10 

Appendix 3............................................................................................................ 11 

Introduction
Background
The Dingell-Johnson Sport Fish Restoration Act (Act)1 established the Sport Fish
Restoration Program. Under the Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish resources. The Act and
Federal regulations contain provisions and principles on eligible costs and allow
FWS to reimburse states up to 75 percent of the eligible costs incurred under the
grants. The Act also requires that fishing license revenues be used only for the
administration of the State’s fish agency. Finally, Federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

      •	 Claimed the costs incurred under the Program grants in accordance with
         the Act and related regulations, FWS guidelines, and the grant agreements.
      •	 Used State fishing license revenues solely for fish program activities.
      •	 Reported and used program income in accordance with Federal 

         regulations. 


Scope
Audit work included claims totaling approximately $3.4 million on the 15 grants
that were open during SFYs that ended June 30, 2009, and June 30, 2010 (see
Appendix 1). We report only on those conditions that existed during this audit
period. We performed our audit at Department headquarters in Hallowell, ME,
and visited its Boothbay Harbor facility (see Appendix 2). We performed this
audit to supplement, not replace, the audits required by the Single Audit Act
Amendments of 1996 and by Office of Management and Budget Circular A-133.

Methodology
We conducted our performance audit in accordance with the “Government
Auditing Standards” issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted
auditing procedures as necessary under the circumstances. We believe that the
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our tests and procedures included:

1
    16 U.S.C. §777, as amended.



                                                                                   1
   •	 Examining the evidence that supports selected expenditures charged to the
      grants by the Department.
   •	 Reviewing transactions related to purchases, direct costs, drawdowns of
      reimbursements, in-kind contributions, and program income.
   •	 Interviewing Department employees to ensure that personnel costs 

      charged to the grants were supportable. 

   •	 Determining whether the State passed required legislation assenting to the
      provisions of the Act.

We also identified the internal controls over transactions recorded in the labor and
accounting systems and tested their operation and reliability. Based on the results
of initial assessments, we assigned a level of risk to these systems and selected a
judgmental sample of transactions recorded in these systems for testing. We did
not project the results of the tests to the total population of recorded transactions
or evaluate the economy, efficiency, or effectiveness of the Department’s
operations.

Prior Audit Coverage
On April 12, 2007, we issued “Audit on the U.S. Fish and Wildlife Service
Federal Assistance Program Grants Awarded to the State of Maine, Department of
Marine Resources, From January 1, 2004, Through December 31, 2005”
(No. R-GR-FWS-0015-2005). We followed up on all recommendations in the
report and found that the U.S. Department of the Interior, Office of the Assistant
Secretary for Policy, Management and Budget considered them to be resolved and
implemented.

We also reviewed Maine’s Comprehensive Annual Financial Reports and Single
Audit Reports for SFYs 2009 and 2010. Neither of these reports contained any
findings that would directly affect the Program grants.




                                                                                    2
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Act, regulations, and FWS
guidance. We identified several conditions that resulted in the findings listed
below, including questioned costs totaling $21,147. We discuss the findings in
more detail in the Findings and Recommendations section.

Questioned Costs. We questioned costs totaling $21,147 because the Department
charged program grants for (1) an employee’s retroactive payroll costs for
services rendered prior to the grant period, and (2) activities that did not benefit
the Program grants.

Unsupported In-Kind Volunteer Contributions. The Department claimed the
value of volunteer hours as its matching share of costs, but was unable to provide
adequate supporting documentation.

Inadequate Assent Legislation. The Department did not assent to the provisions
in the Dingell-Johnson Sport Fish Restoration Act.

Findings and Recommendations
A. Questioned Costs - $21,147

1. Out-of-Period Payroll Costs - $15,630

Employees of the State of Maine may apply for a position classification upgrade
if they believe they are underpaid. The Department’s Aquatic Education Director
filed a claim to reclassify her position for additional pay. The Department
approved the claim and charged retroactive payroll expenses (salary plus benefits)
for the period covering July 2005 through May 2008 to grant F-29-E-22. The
grant period was January 1, 2008, through December 31, 2008. We are
questioning the portion of the payroll expenses of $15,630 (Federal share) for
services rendered prior to January 1, 2008.

The Code of Federal Regulations (2 CFR § 225, Appendix A, subsection C.1.a),
states that to be allowable under Federal awards, costs must be necessary and
reasonable for proper and efficient performance and administration of Federal
awards. Additionally, it specifies that compensation for personnel services
includes all remuneration, paid currently or accrued, for services rendered during
the period of performance under Federal awards (2 CFR § 225, Appendix B,
subsection 8).




                                                                                     3
Finally, 43 CFR § 12.63(a) states that a grantee may charge to the award only
costs resulting from obligations of the funding period unless carryover of
unobligated balances is permitted. Furthermore,43 CFR § 12.43 defines
obligations as services received during a period that will be paid during the same
or future period.

This issue occurred because the Department claimed the expense based on the
date of the Retroactive Personnel Record Adjustment Worksheet and Payroll
Authorization rather than the dates the services were rendered. The Department
did not have policies and procedures in place to ensure that Program grants are
charged only for goods and services benefitting the grant during the grant period.

We questioned the Federal share of $15,630 for the portion of the payment that
did not benefit the Program grant because it was for services rendered outside the
grant period.

Recommendations

We recommend that FWS:

    1. Resolve the questioned costs totaling $15,630.

    2. Require the Department to implement policies and procedures that
       meet the criteria of 2 CFR § 225, Appendix A, subsection C.1.a;
       Appendix B, subsection 8; and 43 CFR § 12.63(a).


Department Response
Department officials concurred with the finding and will address the
recommendations in the corrective action plan.

FWS Response
FWS Regional officials concurred with the finding and recommendations.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   • 	 The specific action(s) taken or planned to address the recommendations.
   • 	 Targeted completion dates.
   • 	 Titles of officials responsible for implementing the actions taken or
       planned.
   • 	 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.




                                                                                     4
2. Ineligible Other Direct Costs - $5,517

During summer seasons, the Department hires temporary staff through an agency
to operate and maintain an aquarium for the public in Boothbay Harbor. The
Department pays the agency based on invoices listing employee name, hourly
rate, and number of hours worked. The Department charged costs for
receptionists, who ring up admission fees and merchandise sales on the cash
register, and carpenter services, which are not grant-related activities, to aquatic
education grants F-29-E-23 and F-29-E-24.

Title 2 CFR § 225, Appendix A, subsections C.1.a and C.1.b, states that to be
allowable under Federal awards, costs must be necessary and reasonable for
proper and efficient performance and administration of Federal awards and be
allocable to Federal awards.

Additionally, 50 CFR § 80.15(d) requires projects or facilities designed to include
purposes other than those eligible under the Dingell-Johnson Sport Fish
Restoration Act to provide for the allocation of costs among the various purposes.

Finally, 2 CFR § 225, Appendix A, subsection C.3.a, states that to be allowable
under Federal awards, a cost is allocable to a particular cost objective if the goods
or services involved are chargeable in accordance with relative benefits received.

The Department did not allocate invoices for aquarium expenses between
ineligible activities and grant-related activities. In addition, the Department did
not have policies and procedures in place to ensure that Program grants are
charged only for goods and services benefitting the Program grant.

Because the expenses were not necessary and reasonable for the performance and
administration of the grants (F-29-E-23 and F-29-E-24), we questioned costs
totaling $5,517 (Federal share) for activities related to admissions, sales, and
carpenter services that were not allocated.

 Recommendations

 We recommend that FWS:

    1. Resolve the questioned costs totaling $5,517.

    2. Require the Department to implement policies and procedures that
       meet the criteria of 2 CFR § 225, Appendix A, subsections C.1.a, C.1.b,
       and C.3.a, and 50 CFR § 80.15(d).




                                                                                      5
Department Response
Department officials concurred with the finding and will address the
recommendations in the corrective action plan.

FWS Response
FWS Regional officials concurred with the finding and recommendations.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

     • 	 The specific action(s) taken or planned to address the recommendations.
     • 	 Targeted completion dates.
     • 	 Titles of officials responsible for implementing the actions taken or
         planned.
     • 	 Verification that FWS headquarters officials reviewed and approved of
         actions taken or planned by the Department.

B.    Unsupported In-kind Contributions

Under the Program, States must use “State matching” (non-Federal) funds to
cover at least 25 percent of costs incurred in performing projects under the grants.
The State’s matching share of costs on three Program grants was partially
composed of noncash contributions, consisting of the value of hours donated by
volunteers.

Federal regulations require States to support the value of the labor used as State
matching funds in the same manner as their regular personnel costs. In-kind
contributions claimed on grant F-29-E-23 consisted of volunteer work at both the
Burnt Island Lighthouse and the Aquarium. The timekeeping records for the
aquarium were maintained on a separate log for each volunteer reflecting
individual dates and hours worked, similar to the methodology used for the
Department's employee timesheets. The Burnt Island Lighthouse volunteers’
timekeeping records, however, were kept on a continuous log for all volunteers
during the grant period. We found many of the hours claimed under grant F-29-E-
23 for the Burnt Island Lighthouse volunteers were not adequately supported. On
the log provided for the Burnt Island volunteers, consisting of 16 continuous
pages of entries, we found the following:

     •	 Five of the 16 pages had no supervisory approval.
     •	 Nine of 16 pages contained at least one of the following: Cumulative days
        and/or cumulative hours, instead of daily entries.
     •	 Eleven of 16 pages listed activities performed (tour guides, actors,
        lighthouse keepers, and store sales people) which did not benefit the grant.
The CFR outlines documentation requirements for in-kind contributions.
According to basic guidelines on cost principles outlined in 2 CFR § 225,


                                                                                   6
Appendix A, subsection C.1.j, for a cost to be allowable under Federal awards, the
cost must be adequately documented. In addition, 43 CFR § 12.64(b)(6) states
that third party in-kind contributions counting towards satisfying a cost-sharing or
matching requirement must be verifiable from the records of grantees and
subgrantees. It further states that, to the extent feasible, volunteer services will be
supported by the same methods that the organization uses to support the allocation
of regular personnel costs.

According to Chapter 25.15.20(b) of the Maine State Administrative &
Accounting Manual (SAAM), each employee must complete, sign, and submit a
biweekly timesheet, signed by a supervisor.

Furthermore, in the Aquatic Resources Education five-year plan submitted to the
FWS for grant F-29-E, Project Period January 1, 2007, through December 31,
2011, the Department states that "volunteer time will be recorded manually each
workday and used as in-kind match for this grant.”

This issue arose because the Department did not have policies and procedures in
place to ensure compliance with Federal regulations. Additionally, it did not
ensure that employees responsible for recording and reporting the value of in-kind
contributions were fully aware of applicable Federal requirements.

Because the Department could not support the full value of the in-kind
contributions from the Burnt Island Lighthouse volunteer hours claimed on grant
F-29-E-23, we determined that the Department overstated its share of matching
costs reported on the Federal Financial Report by $66,475. Because of the State’s
overmatch, however, there are no questioned costs.

 Recommendation

 We recommend that FWS ensure the Department develops and implements
 policies and procedures regarding time keeping documentation to comply with
 Federal regulations.


Department Response
Department officials concurred with the finding and will address the
recommendation in the corrective action plan.

FWS Response
FWS Regional officials concurred with the finding and recommendation.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:



                                                                                     7
   • 	 The specific action(s) taken or planned to address the recommendation.
   • 	 Targeted completion dates.
   • 	 Titles of officials responsible for implementing the actions taken or
       planned.
   • 	 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

C. Inadequate Assent Legislation

The State has not enacted legislation that the Department of Marine Resources
assents to the Dingell-Johnson Sport Fish Restoration Act. During the grant
period open between July 1, 2008, through June 30, 2010, the Department
received approximately $2.3 million in sport fish restoration grant funds without
having the required assent legislation in place.

Title 50 CFR § 80.3 requires States to pass legislation assenting to the provisions
in the Dingell-Johnson Sport Fish Restoration Act before the State can participate
in the Federal Assistance Program.

State officials were unaware that legislation specifically assenting to provisions of
the Dingell-Johnson Sport Fish Restoration Act was required for the Department
of Marine Resources. As a result of not passing adequate assent legislation, the
Department could be ineligible to participate in the grant program, which could
result in a loss of an estimated $2.3 million in grant funding.

Recommendation

We recommend that FWS require the Department to work with the State
Legislature to pass legislation assenting to the provisions of the Dingell-
Johnson Sport Fish Restoration Act.


Department Response
Department officials concurred with the finding and enacted the required assent
legislation.

FWS Response
Based on the Department’s response, FWS Regional officials consider the
recommendation resolved and implemented.

OIG Comments
Based on FWS’ response, we consider the recommendation resolved and
implemented. No further action is necessary.




                                                                                    8
Appendix 1
                       State of Maine 

             Department of Marine Resources

          Financial Summary of Review Coverage 

            July 1, 2008, Through June 30, 2010



      Grant        Grant       Claimed      Questioned
     Number      Amount          Costs        Costs
    F-29-E-22     $331,625      $367,901      $15,630
    F-29-E-23       413,125       446,042       3,509
    F-29-E-24       413,000       191,098       2,008
    F-40-T-15       128,625       125,678
    F-40-T-16       179,625        99,626
    F-40-T-17       130,750        26,733
    F-41-R-15       261,535       251,192
    F-41-R-16       268,000       256,403
    F-41-R-17       267,750       154,797
    F-42-R-11       262,500       239,763
    F-42-R-12       264,000       255,380
    F-42-R-13       260,125       158,353
    F-43-R-09       325,750       319,308
    F-43-R-10       323,625       320,568
    F-43-R-11       329,875       195,594
      TOTAL     $4,159,910    $3,408,436     $21,147




                                                         9
Appendix 2
                      State of Maine 

               Department of Marine Resources

                       Sites Visited 


                       Headquarters 

                        Hallowell

    Bureau of Resource Management - West Boothbay Harbor
                    Burnt Island Lighthouse 

                     Maine State Aquarium 

               Management Office and Laboratory 





                                                           10
Appendix 3
                                State of Maine 

                      Department of Marine Resources

               Status of Audit Findings and Recommendations 



Recommendations               Status                  Action Required

A.1.1, A.1.2, A.2.1,   FWS management           Based on the FWS response,
A.2.2, and B           concurs with the         additional information is
                       recommendations,         needed in the corrective action
                       but additional           plan, as listed in the Finding
                       information is           and Recommendations section
                       needed, as outlined in   under OIG Comments. We will
                       the “Actions             refer the recommendations not
                       required” column.        resolved and/or implemented at
                                                the end of 90 days (after
                                                March 21, 2012) to the
                                                Assistant Secretary for Policy,
                                                Management and Budget for
                                                resolution and/or tracking of
                                                implementation.

C                      FWS management           No further action is necessary.
                       considers the
                       recommendation
                       resolved and
                       implemented.




                                                                             11
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
